Proskauer Rose LLP Eleven Times Square New York, NY 10036-8299

June 3, 2021
By eFile
Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543

Martin J. Bienenstock
Member of the Firm
d +1.212.969.4530
f 212.969.2900
mbienenstock@proskauer.com
www.proskauer.com

Re: Hermandad de Empleados del Fondo del Seguro del Estado, Inc., et al. v. Commonwealth
of Puerto Rico, et al., No. 20-1466
Dear Mr. Harris:
On behalf of the Financial Oversight and Management Board for Puerto Rico (the
“Board”), I write pursuant to Supreme Court Rule 30.4 to request a 30-day extension of time to
respond to the petition for a writ of certiorari in the above-captioned matter. On June 1, the
Court requested that the Board respond to the petition by July 1. The requested 30-day extension
would move the due date to August 2.1 Counsel for Petitioners has indicated that she does not
oppose this request.
Congress established the Board to oversee the restructuring of Puerto Rico’s massive
public debt—the largest municipal-debt restructuring in American history. See 48 U.S.C.
§ 2121(b). At present, the Board is litigating numerous adversary proceedings within the
bankruptcy-like cases it has filed on behalf of the Commonwealth and its municipal entities. The
Board is also litigating several appeals before the First Circuit, as well as opposing a petition for
certiorari to this Court in Case No. 20-1400. In light of the significant number of matters the
Board is currently handling, we respectfully submit that the requested extension is necessary to
provide sufficient time to properly respond to the petition.
Thank you for your consideration.

Sincerely,

Martin J. Bienenstock

1

A 30-day extension would move the deadline to Saturday, July 31. Pursuant to Supreme Court
Rule 30, the deadline is moved to the following Monday, August 2.

Beijing | Boca Raton | Boston | Chicago | Hong Kong | London | Los Angeles | New Orleans | New York | Newark | Paris | São Paulo | Washington, DC

Scott S. Harris
June 3, 2021
Page 2

cc:

Jessica Esther Mendez, Counsel of Record for Petitioners
William J. Sushon
Luis C. Marini-Biaggi

